                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: A11110081                                                                      Page 1 of 1



                 A University 1 conducted an inquiry into an allegation that a faculty member (Subject/
         plagiarized material in two declined NSF proposals (Proposal 13 and Proposal 24), and contacted
         our office. We informed the University that we would begin our review of the allegation as an
         inquiry and would refer the investigation to the University, if necessary. The University
         subsequently informed us that the Subject left the University to teach at another institution. 5

                Our inquiry found that the Subject acknowledged having plagiarized material in
         Proposals 1 and 2. After discussion with the University, we jointly agreed that the process would
         be expedited if NSF OIG proceeded with its investigation in lieu of referring the matter.

                 We concluded, by a preponderance of the evidence, that the Subject recklessly committed
         plagiarism and that this act constituted a significant departure from accepted practices of the
         relevant research community, and recommended actions to be taken to protect the federal
         interest. The Deputy Director concurred with our findings and recommendations.

                 This memo, the attached Report oflnvestigation, and the Deputy Director's letter constitute
         the case closeout. Accordingly, this case is closed.




NSF OIG Form 2 (11102)
SENSITIVE                                                                                   SENSITIVE.




       National Science Foundation
         Office of Inspector General




                 Report of Investigation
               Case Number A11110081
                                March 1, 2013


                         This Report oflnvestigatio11 is provided to §o~
                        . - , FOR OFFICIAL USE ONLY.
  .ltcoiltairis protected personal' infcmnation, the. unauthmiz~d disclosure 9f which m~y result :in
   personal criminal liability under the· Privacy Act,- 5 U.S. C. § 5 52a~. Tbis report may be further
   disclose<! within NSF only to :individuals who must have knowledge o(its contents to
   facilitate NSF~sassessmer1t ·and resolution of this: matter~ Tills report may be disclosed
   outside NSF.onl)r under the Freedom of I1lformatiotr and Privacy Acts, 5 U.S.C §§ 552 &
.. 552a. Please. take appropriate precautions handling this report of inyestigation.        ·      ··

                                                                                  NSF OIG Form 22b (1/13)
SENSITIVE                                                                                SENSITIVE


                                      Executive Summary

Allegation:      Plagiarism.

OIG Inquiry:     OIG identified nine sources from which approximately 50 unique lines, one
                 figure, and three embedded references were copied into two declined NSF
                 proposals.

OIG
Investigation:   We concluded, based on a preponderance ofthe evidence, that the Subject
                 recklessly committed plagiarism, and that the plagiarism constituted a
                 significant departure from accepted practices of his professional community.

OIG
Assessment:
                 •   The Act: The Subject plagiarized 50 unique lines, one figure, and three
                     embedded references from nine sources into two declined NSF proposals.
                 •   Intent: The Subject acted recklessly.
                 •   Standard of Proof: A preponderance of evidence supports the conclusion
                     that the Subject committed plagiarism.
                 •   Significant Departure: The Subject's plagiarism represents a significant
                     departure from accepted practices.
                 •   Pattern: None .

OIG
Recommends:
                 •   Make a finding of research misconduct against the Subject.
                 •   Send the Subject a letter of reprimand.
                 •   Require certifications from the Subject for a period of 1 year.
                 •   Require certification of attending an ethics class within 1 year.




                                               1
 SENSITIVE                                                                                   SENSITIVE



                                             OIG's Inquiry

          A University 1 conducted an inquiry into an allegation that a facu1ty member (Subject) 2
  plagiarized material in two declined NSF proposals (Proposal 13 and Proposal 2\ It determined
  plagiarism occurred and contacted our office. Because the University conducted the inquiry
  outside of its research misconduct policy and did not produce an inquiry report, we informed the
  University that we would begin our review of the allegation as an inquiry and wou1d refer the
- iiwestigaiionto the UlliversitY,-ii necessary-:-The Uiiiversity-suosequently inforiileaus ilia1 the
  Subject left the University to teach at another institution.5

        We reviewed Proposals 1 and 2. As illustrated below, we identified 20 unique lines and
 three embedded references copied from four sources 6 into Proposal!, and 30 unique lines and
 one figure copied from six other sources7 into Proposal 2.

    Source             Proposall                           Proposal2
    A (website)        5 lines, l embedded reference       5lines
    B (article)        1.5lines                            1.5lines
    C (article)        11 lines, 2 embedded references     11 lines, 2 embedded references
    D (website)        2.5lines                            2.5lines
    E (website)                                            7lines
    F (publication)                                        6lines
    G (article)                                            3 lines, 1 figure
    H (website)                                            10 lines
    I (website)                                            4lines
    Total- Unique      20 lines, 3 embedded references     30 lines, 1 figure

        We reviewed three other proposals the Subject submitted to NSF. 8 We found 19lines of
copied text, which were. already identified in Proposals 1 and 2, in one proposal, 9 and de minimis
                                      10
plagiarism in the other two proposals. Accordingly, we focused our inquiry on Proposals 1-2.

       We contacted the Subject regarding the allegation. 11 The Subject acknowledged having
copied material into his proposals. 12 He explained that he was educated in China where "The




                                                       2
 SENSITIVE                                                                                              SENSITIVE



 practice of taking beautifully written English sentences and materials and col11Jl1.itting them to
                                                                                                     13
 memorv
   ·- - ... or reciJation is a common nractice
                                     -   ~-
                                                  0   •   for students trvin!! to master En~Y11sh"
                                                                                            ........    Hf' .«~irl
 he routinely collected teaching plans from websites without noting their sources, adding:

                  ... I have reproduced virtually verbatim the writings of others, in
                  which a few sentences in each source have been duplicated. The
                  original writers stated, more eloquently in English than I ever
                  could, my own philosophy of teaching, a profession that I love and
                  find an endless source of my own learning about the field that I am
                  passionate about My error is inexcusable, but it was inadvertent 14

He noted, however, that "none of the instances where I failed to cite the proper authority should
have misled the reader" since the text was either an introductory statement or a statement of a
known scientific fact 15 .

          He corududed:

                  I have failed miserably to take the precautions that an American
                  scholar should take in attributing the work of others. You can trust
                  that the lesson is learned, and after the incidences I have explored
                  additional instruction on the subject of Western ethics and for
                  some practical guidance on how others conform to those standards,
                  I Win never make the same errors again." 16

       We reviewed the Subject's response and determined it did not dispel the allegations. The
Subject did not contest having plagiarized material, but rather attempted to explain his actions.
We concluded there was sufficient evidence to proceed with an investigation.


                                              OIG Investigation

        We contacted the University to refer the investigation. After discussion with the
University, we jointly agreed that the process would be expedited if NSF OIG proceeded with its
investigation in lieu of referring the matter; however, the University pledged to assist us as
necessary.

         We initiated our investigation and informed the Subject we were doing so. 17 We asked
him to provide his CV and to respond to questions regarding his proposal preparation process,
his training, and his knowledge about plagiarism.


ll Tab 4.
12
   Tab 5.
13
   Tab 5, pg L
14
   Tab 5, pg L
15
   Tab 5, pg 2.
16
   Tab 5, pg L
17
   Tab 7.


                                                          3
SENSITIVE                                                                                                   SENSITIVE


           In his response, 18 the Subject again acknowledged having copied material into his
proposals. He explained that, because English is not his native language, he prepares proposals
in four steps:

                  1.     Write down the initial ideas in Chinese
                  2.     Draft a proposal in Chinese
                  3.     Translate the draft into English
             -----4.     Ask my colleagues(native spealrersToi-professionals to read- --- - - --- -- -
                         through 19

He said "In either daily life or research work, I think first in my native Chinese, then translate my
thoughts into English, and use inaccurate English words, which make me appear less
understandable." 20 He said he was schooled in China and provided journal articles that describe
plagiarism as culturally relative. 21 Specifically, he said

                    A culture-based and different understanding of plagiarism
                    contributed to an insensitive usage of the words of others.... In
                    China, students are encouraged to use the memorized beautiful
                    words and sentences in their writings. The accurate usage of these
                    words indicates a person is well-educated and knowledgeable. 22

         The Subject said his training did not include a research ethics course23 and he had ''never
been instructed regarding the definition of plagiarism by any grantor agencies or academic
institutions."24 He added that the grant writing courses he took focused on "how to compose the
proposal to meet the requirements of grant agencies, but never talked about research misconduct
or plagiarism."25 He said:

                    Before this incident, my understanding of plagiarism was that an
                    individual intends to cheat or mislead others by using their
                    research ideas, experimental data, procedures, and results without
                    any citations. 26

Smce receiving our letters, he said he has read extensively about plagiarism and research
misconduct and now uses websites to check his work for plagiarism. 27 He also said he
"volunteered to give a presentation on research misconduct for new graduate students" at the
University, but did not have the opportunity to do so before changing institutions.28

18
   Tab   8.
19
   Tab   8, pg 5. He provided us with proposal drafts containing his colleagues' edits (Tab 8, pg 12-56).
20
   Tab   8, pg 2.
21
   Tab   8, pg 62-105.
22
   Tab   8, pg 4.
23
   Tab   8, pg 2.
24
   Tab   8, pg 3.
25
   Tab   8, pg 4.
26
   Tab   8, pg 4.
27
   Tab   8, pg 3-4, contains the references for his self-study and plagiarism detection websites.
28
   Tab   8, pg 3 and 58-60.


                                                            4
SENSITfVE                                                                                                 SENSITIVE




        Tho.
        ...._.._....__.
                          ~ ..... "h..;a.,....+ ..-..n.-n,....l,,...t~..-1·
                          ...._.;;,..;._;._;j~'-'i.   _.V.i_.i_;_..i_u.u_....,.~.




                                  Sincerely, I do not offer the above as an excuse, but as an
                                  explanation. I usually worked 14 hours a day in my office and lab.
                                  If having been educated to know the Western ethical standards of
                                  plagiarism, I would have avoided this from happening. This
                                  incident is not the result of laziness or intention of misleading, is
                                  the consequence of the deficiencies in my knowledge of
                                  plagiarism. 29

       We reviewed the Subject's response. We concluded that the Subject, who did not contest
having plagiarized, attributed the act to his lack of training, and his non-native English skills.

         To better understand the Subject's educational and professional experience, we reviewed
his CV. 30 Though educated in China, he served two postdoctoral appointments at U.S.
institutions.31 The CV, however, suggested that he was a relatively new researcher; he has only
                        32
given 20 presentations and published 24 publications/ 3 of which he solely authored one. We
reviewed for plagiarism the one article he solely authored34 and did not find plagiarism
warranting further review, suggesting no pattern of plagiarism.

        We reviewed the website of a professional societl 5 at whose conference the Subject
frequently gives presentations, to determine the standards ofhis research community. The
society, 36 which publishes a journal twice monthly, 37 instructs its journal authors that:

                                [The journal] expects the highest level of scholarship from its
                                authors. They should cite papers that are closely related to the
                                present work, that have been influential in determining the nature
                                of the reported work, and that will aid the reader in locating earlier
                                work essential for understanding the present studies. Except in a
                                review, the citation of works that are not relevant or directly
                                related to the reported research should be minimized. For critical
                                materials used in the work, there must be proper citation and
                                acknowledgement of non-author sources.

                                The authors should identify all sources of information quoted or
                                offered, except for common knowledge. 38




                                                                                    .5
SENSITIVE                                                                                SENSITIVE




Based on these standards, the Subject's actions constitute a significant departure from the
accepted practices ofhis research community.

       In reaching this conclusion we considered the Subject's argument regarding his
education. The Subject argued that, though he now understands the way he acted did not
conform to the accepted practices of the U.S. research community, he acted within the
pan~metersOffue research commuruty in which he was educated. NSF expects proposals if - ---- .. -- --~ . .
receives to conform to the standards of the U.S. research community, and expects those
submitting the proposals to be educated in these standards. Accordingly, we determined the
Subject's actions did in fact constitute a significant departure from the accepted of the relevant
research community.


                                       OIG's Assessment

       A finding of research misconduct by NSF requires that there be a significant
departure from accepted practices of the relevant research community; the research
misconduct be committed intentionally, or knowingly, or recklessly; and the allegation be
proven by a preponderance of the evidence. 39

                                             The Acts

        Our review found the Subject copied 50 unique lines, one figure, and three embedded
references from nine sources into declined Proposals 1-2. We conclude the Subject's actions
constitute plagiarism under NSF's definition. In offering material composed by others as his
own, the Subject misrepresented his own efforts and presented reviewers with an incorrect
measure ofhis abilities. We further conclude the Subject's acts of plagiarism constituted a
significant departure from accepted practices.



         We conclude the Subject acted recklessly in plagiarizing material. Although a reasonable
person is expected to know that using verbatim text without demarcation is not acceptable, we
believe the Subject's training and academic background led to perhaps a lack of nuanced
understanding of appropriate citation practices. Additionally, the Subject's method of proposal
preparation- routinely collected teaching plans from websites without noting their sources -is
itself a reckless method for incorporating others' ideas and words into one's own proposal. We
therefore conclude the Subject's actions were reckless.




38··················-
39   45 C.ER. § 689.2(c).


                                                6
 SENSITIVE                                                                                              SENSITIVE




                                         {_"'frr"!~A_rry-_rf ~-r               P?nnf"
                                         _.,.   ,~    ......,,   L'Y   ""''   ..................... ,




       OIG concludes that the Subject's actions and intent were proven based on a
 preponderance of the evidence.

         OIG concludes that the Subject, by a preponderance of the evidence, recklessly
 plagiarized, thereby committing an act of research misconduct.


                               OIG's Recommended Disposition

       A finding of research misconduct by NSF requires (1) there be a significant departure
from accepted practices of the relevant research community, (2) _the research misconduct be
committed intentionally, or knowingly, or recklessly, and (3) the allegation be proved by a
preponderance of the evidence. 40

                                                Seriousness

       The Subject's actions are a violation of the standards of scholarship and the tenets of
general research ethics. Copied text serves to misrepresent one's body of knowledge, presenting
reviewers with an inaccurate representation of a proposal's merit. Nonetheless, we acknowledge
the amount of material plagiarized is small compared to other cases our office has investigated.

                                                     Pattern

       We identified no pattern of plagiarism in our review of the one article the Subject himself
authored.




40
     45 C.F.R §689.2(c).


                                                             7
SENSITIVE                                                                                      SENSfTIVE



                                                 Recommendation

Based on the evidence, OIG recommends NSF:

                   •   Send the Subject a letter of reprimand notifying him that NSF has made a
                       finding of research misconduct. 41
               _ •     Re<;tuire the Subject to certify: to the Assistant InsQector General for
                       Investigations (AlGI) his completion of a responsible conduct of research
                       training program and provide documentation of the program's content within
                                                 42
                       1 year of NSF's finding. The instruction should be in an interactive format
                       (e.g., an instructor-led course) and specifically include the topic of plagiarism.

For a period of one year as of the date of NSF's finding:

                   •   Require for each document (proposal, report, etc.) to which the Subject
                       contributes for submission to NSF (directly or through his institution), the
                       Subject submit a contemporaneous certification to the AIGI that the document
                       does not contain plagiarism, falsification, or fabrication. 43




41
   A Group I action 45 C.F.R. 689.3(a)(l)(i).
42
   This action is similar to Group I actions 45 C.F.R. 689.3(a)(l).
43
   This action is similar to 45 C.F.R. 689.3(a)(l)(iii).


                                                           8
                                  NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230




                                                                                JUL Z6 2013
      OFFICE OF THE
   . DEPUTY DIRECTOR




 CERTIFIED MAIL --RETURN RECEIPT REQUESTED




         Re:     Notice of Research Misconduct Detenitination .

 Dear D r . -

        From 2009-2010, you were identified as Principal Investigator on two proposals
 submitted to the National Science Foundation ("NSF") entitled,


 documented in the attaehed Investigative Report prepared by NSF's Office of Inspector General
 ("OIG"), these proposals contained plagiarized material.

 Research Misconduct and Proposed Sanctions
         Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
 or plagiarism in proposing orperformingresearchfunded by NSF ... " 45 CFR § 689.l(a). NSF
 defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
 without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
 requires that:

         (1) There be a significant departure from accepted practices of the relevant research
             community; and
         (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
         (3) The allegation be proven by a preponderance of evidence.

 45 CFR § 689.2(c).

          Your proposals cohtamed verbatim and paraphrased text, one figure, and three embedded
  references copied froin several source documents. By submitting pr9posals to NSF that copied
· the ideas or words of another without adequate attribution, as described in the OIG Investigative
                                                                                              Page2
Report, you misrepresented someone else's work as your own. Your conduct unquestionably
constitutes plagiarism. I therefore conclude that your actions meet the definition of"research
misconduct~: set fonh in l~SF;s regulations.


        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance ofthe evidence. 45 CFR § 689.2(c). After
reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
evidence, your plagiarism was committed recklessly and constituted a significant departure from
accepted practices of the relevant research community. I am, therefore, issujng a finding of
research misconduct against you.

         NSF's regulations establish three categories of actions (Group I, II, and III) that can be
taken in response to a finding of misconduct. 45 CFR § 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR § 689.3(a)(1).
Group II actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR § 689.3(a)(2). Group III actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

        In determining the seventy of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct, and our determination that it was committed
recklessly. I have also considered the fact that your misconduct was not part of a pattern, and had
no impact on the research record. I have also considered other relevant circumstances. 45 CFR §
689.3(b).

       After assessing the relevant facts and circumstances of this case, I am taking the
following actions against you:

       (1) Until July 1, 2014, you must provide certifications to the OIG that any proposal or
           report you submit to NSF as a PI or co-PI does not contain plagiarized, falsified, or
           fabricated material; and

       (2) By July 1, 2014, you must complete a responsible conduct of research training
           program, for which the instruction should be in an interactive format (e.g., an
           instructor-led course) and specifically include plagiarism. You must provide
           documentation of the program's content and proof of its completion to the OIG.

        The certifications and written documentation of the training program should be submitted
in writing to NSF's OIG, Associate Inspector General for Investigations, 4201 Wilson Boulevard,
Arlington, Virginia 22230.
                                                                                           Page3
Procedures Governing Appeals
        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
of this decision, in writing, to the Director of the Foundation. 45 CFR § 689.10(a). Any appeal
should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
decision will become final.

       For your information, we are attaching a copy of the applicable regulations. If you have
any que~tions about the foregoing, please c a l l - Assistant General Counsel, at (703)
292-8060.



                                                     Sincerely,




                                                     Fae Korsmo
                                                     Senior Advisor




Enclosures
   Investigative Report
- 45 C.F.R. Part 689
